<html>
<title> - NUCLEAR TERRORISM: STRENGTHENING OUR DOMESTIC DEFENSES</title>
<body><pre>[Senate Hearing 111-1096]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 111-1096
 
         NUCLEAR TERRORISM: STRENGTHENING OUR DOMESTIC DEFENSES

=======================================================================

                                HEARINGS

                               before the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           PART I AND PART II

                               __________

                     JUNE 30 AND SEPTEMBER 15, 2010

                               __________

         Available via the World Wide Web: http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
58-397                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5037203f103325232438353c207e333f3d7e">[email&#160;protected]</a>  

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
JON TESTER, Montana                  LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois
EDWARD E. KAUFMAN, Delaware

                  Michael L. Alexander, Staff Director
               F. James McGee, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
        Christopher J. Keach, Minority Professional Staff Member
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................ 1, 21
    Senator Collins.............................................. 3, 23
    Senator Akaka................................................    35
Prepared statements:
    Senator Lieberman........................................... 39, 77
    Senator Collins............................................. 42, 79

                               WITNESSES
                        Wednesday, June 30, 2010

Eugene E. Aloise, Director, Natural Resources and Environment, 
  U.S. Government Accountability Office..........................     4
Micah D. Lowenthal, Ph.D., Director, Nuclear Security and Nuclear 
  Facility Safety Program, Nuclear and Radiation Studies Board, 
  National Research Council of the National Academies............     6
Dana A. Shea, Ph.D., Specialist in Science and Technology Policy, 
  Resources, Science, and Industry Division, Congressional 
  Research Service, Library of Congress..........................     8

                     Wednesday, September 15, 2010

Hon. Jane Holl Lute, Deputy Secretary, U.S. Department of 
  Homeland Security..............................................    25

                     Alphabetical List of Witnesses

Aloise, Eugene E.:
    Testimony....................................................     4
    Prepared statement...........................................    43
Lowenthal, Micah D., Ph.D.:
    Testimony....................................................     6
    Prepared statement...........................................    58
Lute, Hon. Jane Holl:
    Testimony....................................................    25
    Prepared statement...........................................    82
Shea, Dana A., Ph.D.:
    Testimony....................................................     8
    Prepared statement...........................................    68

                                APPENDIX

``Combating Nuclear Smuggling: Inadequate Communication and 
  Oversight Hampered DHS Efforts to Develop an Advanced 
  Radiography System to Detect Nuclear Materials,'' Statement for 
  the Record by Eugene E. Aloise, Director, Natural Resources and 
  Environment, and Stephen L. Caldwell, Director, Homeland 
  Security and Justice, U.S. Government Accountability Office, 
  released on September 15, 2010.................................    99
Letter from Nelson Peacock, Assistant Secretary for Legislative 
  Affairs, dated September 21, 2010..............................   111
Responses to post-hearing questions for the Record from:
    Ms. Lute.....................................................   113
    Warren M. Stern, Director, Domestic Nuclear Detention Office, 
      U.S. Department of Homeland Security *.....................   119

* Mr. Stern appeared as a witness during the closed portion of 
  the September 15, 2010, hearing.


     NUCLEAR TERRORISM: STRENGTHENING OUR DOMESTIC DEFENSES--PART I

                              ----------                              


                        WEDNESDAY, JUNE 30, 2010

                                     U.S. Senate,  
                       Committee on Homeland Security and  
                                      Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman and Collins.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning and welcome. This is the 
eighth in a series of hearings our Committee has held since 
2007 to discuss how our Nation is confronting the real and dire 
threats posed by nuclear terrorism. And I must say that today 
it seems to me, as I look back and look at where we are now, 
that the threat of a nuclear terrorist attack on the United 
States is growing faster than our ability to prevent a nuclear 
terrorist attack on our homeland, and obviously as the Homeland 
Security Committee this is of great and growing concern to us.
    I know that most people would prefer not to think about the 
unthinkable, but President Barack Obama, to his credit, has 
clearly recognized the threat that brings us together this 
morning. At the 47-nation nuclear summit held in April, the 
President outlined the dangers here quite clearly:
    ``Nuclear materials that could be sold . . . and fashioned 
into a nuclear weapon exist in dozens of nations. Just the 
smallest amount of plutonium--about the size of an apple--could 
kill and injure hundreds of thousands of innocent people.
    ``Terrorist networks such as al-Qaeda have tried to acquire 
the material for a nuclear weapon, and if they ever succeeded, 
they would surely use it.'' These are all continuing quotes 
from the President.
    ``Were they to do so, it would be a catastrophe for the 
world--causing extraordinary loss of life, and striking a major 
blow to global peace and stability.
    ``In short it is increasingly clear that the danger of 
nuclear terrorism is one of the greatest threats to global 
security--to our collective security.''
    Then, a month or so later, the National Security Strategy, 
released by the Administration added: ``The American people 
face no greater or more urgent danger than a terrorist attack 
with a nuclear weapon. . . . Black markets trade in nuclear 
secrets and materials. Terrorists are determined to buy, build, 
or steal a nuclear weapon.''
    The International Atomic Energy Agency's Illicit 
Trafficking Database, which tracks all reported cases of 
smuggling, theft, unexplained losses, or black market sales of 
nuclear materials, reports there have been 1,340 confirmed 
incidents of smuggling since 2007 that involve materials that 
could at least be used to make a so-called dirty bomb. And of 
those cases, 18 involved the smuggling of highly enriched 
uranium or plutonium--the material that is critical to the 
making of an actual atomic weapon.
    In 2008, our Committee held hearings to examine the office 
created in our government to counter this threat--the little-
known Domestic Nuclear Detection Office (DNDO), within the 
Department of Homeland Security (DHS).
    At that time, the question was: How do we keep DNDO on 
track?
    Today, I ask seriously whether DNDO has been on the right 
track and moving rapidly enough to achieve its critical 
mission.
    Though most Americans have never heard of DNDO, its mission 
is clearly vital to our homeland security in the world in which 
we live in today.
    President George W. Bush established the DNDO in 2005 to 
coordinate and oversee Federal efforts to protect the United 
States against nuclear terrorism. Homeland Security 
Presidential Directive 14 designated DNDO as the lead 
organization for domestic nuclear detection and charged it to 
work with the Departments of Defense, Energy, and State, and 
others to develop a Global Nuclear Detection Architecture 
(GNDA).
    Though it has never been defined in statute, the GNDA seems 
to consist of programs across numerous agencies designed to 
stop terrorists from getting nuclear materials or weapons, and 
if they do get them, to stop them from bringing them into the 
United States, and if they do bring them into the United 
States, to stop them from successfully detonating them.
    DNDO was given the critical job of coming up with an 
overall plan about how the different departments would work 
together to implement that plan and then to recommend what kind 
of investments in technology would be needed.
    This was a big mission that they were given, and in 
fairness I should say that there have been some successes. For 
instance, DHS has deployed nearly two-thirds of the more than 
2,100 radiation portal monitors identified in its deployment 
plan at established ports of entry on the Northern and Southern 
Borders.
    Today nearly 100 percent of the seaport containerized cargo 
and 100 percent of vehicle traffic on the Southern and Northern 
Borders are scanned for nuclear material.
    But there also have been omissions and failures, and they 
are serious. Cargo coming by rail from Canada or Mexico is 
still not scanned, only a small percentage of international air 
cargo is scanned, and DNDO apparently has no plans to scan 
commercial aviation aircraft or baggage.
    Five years into its existence, based on its record, it is 
just inescapable to conclude that DNDO requires real retooling, 
and quickly.
    It has made too little progress on its major mission, which 
is the development of the Global Nuclear Detection 
Architecture. Even DNDO seems to have concluded that its 
approach to this task is fundamentally flawed and now seeks an 
increase of $13 million in next year's budget for a new round 
of studies to produce yet another overarching strategic plan 
over the next several years.
    The time for multi-year studies is over; the time for 
urgent action really is now.
    We are going to hear today that DNDO has spent hundreds of 
millions of dollars trying to develop a new radiation detection 
technology that the Government Accountability Office (GAO) 
concludes is only marginally better than we have now.
    Known as the Advanced Spectroscopic Portal (ASP), this 
program has clearly drained resources from other programs, 
including development and deployment of mobile, portable, or 
hand-held technologies that could screen other types of inbound 
cargo or bulk shipments, like those on international trains and 
commercial aviation.
    I know that the Administration is reexamining DNDO. We 
hoped that DHS would come and testify today; they said that 
they were not ready. We have set down a hearing for July 21 to 
hear their response to what we are going to hear from this 
distinguished group of independent evaluators of DNDO, and I 
will say that it is certainly my expectation that what we need 
to hear from DNDO, from the Department of Homeland Security, is 
exactly what they intend to do with and to DNDO to make sure it 
gets its critical mission right, and quickly.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    Safeguarding our Nation against the threat of nuclear 
terrorism is one of the most important responsibilities of the 
Department of Homeland Security. The Weapons of Mass 
Destruction (WMD) Commission, in its 2008 report, predicted 
that ``it is more likely than not that a weapon of mass 
destruction will be used in a terrorist attack somewhere in the 
world by the end of 2013.''
    Technological innovation is a critical element in our 
efforts to prevent nuclear terrorism. It is, therefore, 
troubling that the Department's efforts to develop a next-
generation technology for scanning cargo for nuclear materials 
at ports of entry have been less than successful. As the 
Chairman has pointed out, the Advanced Spectroscopic Portal 
(ASP) program has repeatedly encountered problems since its 
inception in 2004.
    As a result, the ASP has been relegated to being a 
potential secondary scanning tool, although that technology has 
yet to receive certification from DHS for even this limited 
function.
    Given the unwavering ambitions of America's enemies, our 
Nation cannot afford to repeat the mistakes of the past.
    The DHS office currently responsible for making decisions 
about the development, testing, evaluation, and acquisition of 
detection equipment is the Domestic Nuclear Detection Office, 
as the Chairman pointed out in his remarks. DNDO must make 
well-informed and threat-based investment decisions to meet the 
challenge of interdicting illicit nuclear material not only at 
our Nation's borders but also within our country.
    Given our Nation's significant investment in this critical 
area, it is disappointing that DNDO has not made more progress. 
DNDO must also serve as a responsible steward of taxpayer 
dollars. Again, the Department has fallen short in this area as 
well. As we navigate the road forward, the Department must have 
a clearer strategy for developing the next-generation of 
scanning technologies to detect and identify shielded and 
unshielded nuclear materials.
    The three organizations represented at our hearing today, 
the Government Accountability Office, the Congressional 
Research Service (CRS), and the National Research Council, have 
all produced recent reports that have found significant 
problems with the ASP program. They can give us valuable 
insights into the challenges the Department confronts, and that 
Congress must consider, as we move beyond the ASP program.
    It is surely significant that the Department is not 
represented here today. They are not represented because they 
are not prepared to give us that strategy forward and to 
respond to these reports. So the second hearing that the 
Chairman has announced for next month is also going to be 
extremely important.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Collins.
    We will go right to the witnesses with thanks for the 
considerable work you did in preparing your reports and your 
testimony, all of which will be entered by consent in the 
record in addition to the testimony you will deliver.
    Our first witness is Gene Aloise, Director of the Natural 
Resources and Environment Division at the U.S. Government 
Accountability Office. Thanks, Mr. Aloise, and please proceed 
with your testimony.

 TESTIMONY OF EUGENE E. ALOISE,\1\ DIRECTOR, NATURAL RESOURCES 
     AND ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Aloise. Thank you, Mr. Chairman. Thank you, Ranking 
Member Collins.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Aloise appears in the Appendix on 
page 43.
---------------------------------------------------------------------------
    Mr. Chairman and Members of the Committee, I am pleased to 
be here today to discuss the progress DHS has made in deploying 
radiation detection equipment to scan cargo and conveyances 
entering the United States by land, sea, and air for nuclear 
and radiological materials and the development of a strategic 
plan for the Global Nuclear Detection System. My testimony is 
based on our numerous issued reports as well as current work 
assessing U.S. Government efforts to deploy radiation detection 
at home and abroad.
    On the positive side, and as you have just mentioned, Mr. 
Chairman, DHS has made progress and reports that it scans 
nearly 100 percent of the cargo and conveyances entering the 
United States through land borders and major seaports. On the 
down side, however, DHS has made little progress in scanning 
for radiation on rail cars entering the United States from 
Canada and Mexico, international air cargo, and international 
commercial aircraft, passengers, and baggage.
    Nationwide, about 1,400 radiation detection portal monitors 
have been deployed. That is about two-thirds of the 2,100 
monitors planned for deployment, and another 700 monitors are 
needed.
    Scanning for nuclear materials in international rail and 
air cargo are presenting DHS with unique challenges. For 
example, the length of trains presents a huge scanning problem 
because trains can be up to 2 miles long, and separating cars 
that trigger an alarm from other train cars for a closer look 
is very difficult.
    Air cargo is a problem because, among other things, there 
is a lack of natural choke points in airports where fixed 
detection equipment can be deployed, and until solutions can be 
found, DHS goal of scanning 99 percent of air cargo at 33 
international airports in the United States by 2014 is on hold. 
The only scanning for radiation that is now occurring for 
international rail and air cargo is being done with hand-held 
detectors, not portal monitors.
    In addition, DHS efforts to plug the gaps in the nuclear 
detection system is just at the early stages of development. 
Current gaps include land borders between U.S. ports of entry, 
international general aviation, and small maritime craft such 
as recreational boats and fishing vessels.
    It is important to close these gaps because dangerous 
quantities of nuclear materials can be portable enough to be 
carried across borders by vehicles or pedestrians and on most 
private aircraft or small boats. Closing the gaps is a major 
challenge because the United States has over 6,000 miles of 
land borders with many locations outside of established ports 
of entry where people and vehicles can enter. Also, according 
to the Coast Guard, small boats pose a greater threat for 
nuclear smuggling than shipping containers because, among other 
things, there are at least 13 million pleasure craft and 
110,000 fishing vessels in the United States.
    DHS is addressing these gaps by, among other things, 
developing, testing, and deploying radiation detection 
equipment and developing threat studies, but these efforts are 
all in the very early stages.
    Regarding DHS strategic plan for the Global Nuclear 
Detection System, it has been 2 years since we testified before 
this Committee and recommended such a plan, but no such plan 
yet exists. DHS officials told us they are working on a plan 
and hope to complete it by this fall.
    The lack of a strategic plan has limited DHS efforts to 
complete the Global Nuclear Detection System. Without a plan, 
it has been difficult for DHS to address the gaps in the 
system. Also, DNDO's failed 4-year effort to develop the next-
generation portal monitor, the ASP, is a consequence of not 
reaching consensus on a strategic plan with other Federal 
agencies. We believe the proposed deployments of ASP has 
distracted DNDO from finishing the nuclear detection system and 
closing the gaps in it.
    In short, Mr. Chairman, because it had no plan to follow, 
DNDO took its eye off the ball. Instead, DNDO focused on 
replacing current equipment with questionably performing ASPs 
in areas where a detection system was already in place.
    At this moment DHS is at a crossroads. Because of the vast 
land borders, coastlines, and airspace to protect, addressing 
the gaps in the detection system is in many ways more 
challenging than preventing nuclear smuggling through fixed 
ports of entry. Now that the ports of entry are more secure, it 
makes the gaps in the system more attractive to would-be 
smugglers or terrorists.
    With increasingly limited Federal resources, it is 
especially important for DHS to develop a strategic plan which 
prioritizes how it will address the gaps in the detection 
system and allocate resources accordingly.
    Given the national security implications and urgency 
attached to combat and nuclear smuggling globally and that 
multiple Federal agencies are involved, we continue to stress 
that a plan needs to be developed as soon as possible.
    Mr. Chairman, that concludes my remarks, and I would be 
happy to address any questions you and the Ranking Member may 
have.
    Chairman Lieberman. Thanks very much, Mr. Aloise. That was 
right to the point.
    Our next witness is Dr. Micah Lowenthal, Director, Nuclear 
Security and Nuclear Facility Safety Program of the Nuclear and 
Radiation Studies Board at the National Research Council of the 
National Academies. That is a heck of a title. But we 
appreciate very much your expertise and your testimony this 
morning.

 TESTIMONY OF MICAH D. LOWENTHAL, PH.D.,\1\ DIRECTOR, NUCLEAR 
   SECURITY AND NUCLEAR FACILITY SAFETY PROGRAM, NUCLEAR AND 
   RADIATION STUDIES BOARD, NATIONAL RESEARCH COUNCIL OF THE 
                       NATIONAL ACADEMIES

    Mr. Lowenthal. I look forward to having a shorter title 
someday.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Lowenthal appears in the Appendix 
on page 58.
---------------------------------------------------------------------------
    Good morning, Chairman Lieberman, Ranking Member Collins, 
and Members of the Committee. My name is Micah Lowenthal. As 
noted, I am on the staff of the Nuclear and Radiation Studies 
Board of the National Academies of Sciences. I am here to 
testify on a congressionally mandated study on testing and 
evaluation of ASPs for screening cargo as part of the Global 
Nuclear Detection Architecture. I am the study director 
supporting the Committee that wrote the study's interim report.
    I will begin by providing background on the request for 
this study, and then I will describe the report's 
recommendations on evaluating costs and benefits.
    Congress directed the Secretary of Homeland Security to 
request advice from the Academy on procuring ASPs, specifically 
on the testing approach, assessing the costs and benefits, and 
bringing scientific rigor to the procurement process.
    Due to delays in the test and evaluation program, the 
Academy and DHS agreed that the study committee would issue an 
interim report to provide advice on how the Domestic Nuclear 
Detection Office (DNDO), could complete and make more rigorous 
its ASP evaluation. The interim report was issued in June 2009 
and provided advice on the difficult task of analyzing costs 
and benefits of the ASPs.
    To be effective, the Committee found, the cost/benefit 
analysis must include three key elements: One, a clear 
statement of the objectives of the screening program, including 
describing the ASP's role in the Global Nuclear Detection 
Architecture; two, an assessment of meaningful alternatives to 
deploying ASPs; and, three, a comprehensive, credible, and 
transparent analysis of benefits and costs.
    Throughout the study, the Committee considered what 
information the Secretary would need to decide whether to 
procure ASPs. The Committee criticized DHS certification 
criteria and analyses as of June 2009 because even if the 
criteria were met and the analyses completed, DHS still would 
not know whether the benefits of the ASPs outweigh their 
additional costs, or whether the funds slated for procuring 
ASPs are more effectively spent on other technologies to meet 
the same need or on other elements of the Global Nuclear 
Detection Architecture.
    The analyses focused on operational efficiencies but not on 
the security benefits, and the alternatives for cargo screening 
and the opportunity costs in the Global Nuclear Detention 
Architecture were not part of the analysis.
    It is a complex task to evaluate the probability of an 
adversary attempting to smuggle nuclear material into the 
United States. In fact, that probability is impossible to know 
definitively. And the consequences of such smuggling are 
likewise uncertain for other reasons: The range of possible 
consequences is very broad. These uncertainties make it quite 
difficult to factor the benefits of preventing nuclear 
smuggling into a cost/benefit analysis. Despite that 
difficulty, however, it is important for analysts to understand 
what they can about the risks and also the benefits of reducing 
those risks.
    The Committee offered several approaches for analyzing 
security benefits of different alternatives. A capability-based 
planning approach is a structured assessment of the options for 
how a program can meet specific operational goals and of the 
resources required for each option. This approach has been 
applied in a number of defense applications. It can provide a 
rich comparison of the security benefits emphasizing the 
circumstances under which each option might be preferred. 
Capability-based planning can, however, quickly lead to a large 
and complex analysis, and analysts have to balance the 
complexity against the need for simplicity to draw salient 
insights about the system's capabilities.
    Game theory could provide insight into the deterrence or 
deflection benefits from different parts of the Global Nuclear 
Detention Architecture. Studies of other security applications 
have found that the simple presence of security can change 
criminals' behavior. For example, looking at theft statistics 
using game theory, Ian Ayres and Steven Levitt found that 
increases in the use of hidden radio transmitter devices for 
tracking stolen cars in a given area resulted in overall 
declines in car thefts. In contrast, use of observable car 
security measures just tended to shift or deflect the risk of 
theft to other vehicles, but not lower the overall theft rates. 
So having an effective defense in some cars, and no way for an 
adversary to determine which cars have it, reduced theft rates.
    Likewise, the existence of some radiation monitoring at 
seaports and land border crossings may deflect adversaries, 
simply causing them to focus on easier paths through the 
Nation's security. Efforts to improve current screening 
technology have sometimes been described as fortifying the 
locks on the front door but leaving the windows open. For those 
reasons, improving detection for truck-borne cargo may have 
only a modest overall benefit as long as there are significant 
gaps in the Global Nuclear Detention Architecture. Improved 
detection should have more of an effect as those gaps are 
filled.
    The difficulty with game theory is that analysts have to 
make assumptions about the adversaries' goals, resources, and 
reasoning. What constitutes success and what are the costs of 
being caught? But still, it can provide useful insights, 
including reasoning through what fraction of the containers 
entering the United States would need to be scanned or screened 
to deter smugglers.
    Finally, cost-effectiveness analysis and break-even 
analysis are related approaches that have been used to assess 
costs and benefits when performing a complete cost/benefit 
analysis is difficult or impossible.
    Because the goals of the ASP program may be difficult to 
value monetarily, comparing program alternatives using cost-
effectiveness measures such as dollars per life saved or 
dollars per attack avoided could provide insights into their 
relative merits. Break-even analysis seeks the conditions that 
must be met for benefits to exceed costs. In security 
applications, these conditions could be a required reduction in 
overall risk. In cases where break-even analysis identifies 
meaningful bounds on decisions, that is, in cases where the 
threshold conditions for a decision clearly exist, this 
approach can simplify decisionmaking. The downfall of break-
even analysis is that those conditions do not always exist.
    These and other methods for evaluating security benefits 
can provide different insights based on their approach, and 
none is likely to provide fully quantitative and definitive 
results. But most policy decisions are made without fully 
quantitative and definitive results, so DNDO should provide the 
most informative cost/benefit analysis it can.
    This concludes my testimony. Thank you for the opportunity 
to testify, and I would be happy to elaborate in the question-
and-answer period.
    Chairman Lieberman. Thank you very much, Dr. Lowenthal.
    Now we will go finally to Dr. Dana Shea, who is a 
Specialist in Science and Technology Policy in the Resources, 
Science, and Industry Division at the Congressional Research 
Service. Thank you very much for being here.

TESTIMONY OF DANA A. SHEA, PH.D.,\1\ SPECIALIST IN SCIENCE AND 
 TECHNOLOGY POLICY, RESOURCES, SCIENCE, AND INDUSTRY DIVISION, 
      CONGRESSIONAL RESEARCH SERVICE, LIBRARY OF CONGRESS

    Mr. Shea. Thank you. Chairman Lieberman, Ranking Member 
Collins, and other Members of the Committee, thank you for the 
opportunity to testify before the Committee today. My name is 
Dana Shea, and I am a Specialist in Science and Technology 
Policy at the Congressional Research Service. At the 
Committee's request, I am here today to discuss efforts to 
strengthen nuclear detection.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Shea appears in the Appendix on 
page 68.
---------------------------------------------------------------------------
    My testimony today will address the Department of Homeland 
Security's Domestic Nuclear Detection Office, its coordination 
of nuclear detection activities, and the January 2010 report to 
Congress that describes them.
    Homeland Security Presidential Directive 14 established the 
Domestic Nuclear Detection Office in 2005. The Security and 
Accountability For Every (SAFE) Port Act codified the office in 
2006. The Domestic Nuclear Detection Office became responsible 
for developing an enhanced Global Nuclear Detection 
Architecture that multiple Federal agencies, including the 
Departments of Defense, Energy, Homeland Security, Justice, and 
State, would implement.
    The Domestic Nuclear Detection Office developed an initial 
Global Nuclear Detection Architecture and reported its first 
budget cross-cut of Federal programs in 2006. Subsequently, 
Congress enacted the Implementing Recommendations of the 9/11 
Commission Act of 2007, which directs the Secretaries of 
Homeland Security, State, Defense, and Energy, the Attorney 
General, and the Director of National Intelligence to conduct a 
joint annual interagency review of their activities and ensure 
that each agency assesses and evaluates its participation in 
the Global Nuclear Detection Architecture.
    Additionally, the Secretary of Homeland Security is 
required to evaluate technologies implemented in the domestic 
portion of the architecture. The results of these reviews are 
to be reported to Congress by March 31 of each year. The 
Domestic Nuclear Detection Office issued reports in June 2008 
and January 2010.
    The January 2010 report has both strengths and weaknesses. 
The report is the most comprehensive and integrated source of 
information about the programs that make up the Global Nuclear 
Detection Architecture, the activities underway in those 
programs, and how the Domestic Nuclear Detection Office 
categorizes the budgets of the programs by architectural layer. 
The report discusses agency attempts at strategic planning and 
developing metrics for the Global Nuclear Detection 
Architecture.
    The January 2010 report draws heavily on the previous 
report issued in 2008. The report does not address whether 
agencies have shaped the reported budgets to align with the 
priorities of the Global Nuclear Detection Architecture. And, 
finally, the report is retrospective in nature and was 
submitted after its statutory deadline. As such, the report's 
timeliness may be brought into question.
    My analysis of this report and other documents raises a 
number of policy issues. I will highlight three.
    First, a key question for policymakers is: What activities 
and programs should comprise a nuclear detection architecture? 
While detection technologies for identifying and interdicting 
smuggled nuclear materials have been a central focus of the 
architecture, other counterterrorism activities, such as law 
enforcement and intelligence collection, also impact nuclear 
smuggling.
    Similarly, while the Departments of Defense, Energy, 
Homeland Security, and State are the main participants in the 
Global Nuclear Detection Architecture, other entities, such as 
State and local law enforcement and agencies overseeing 
licensing of radiological materials, also have roles. Greater 
assessment and inclusion of these investments might lead to 
increased harmonization of nuclear detection efforts and, thus, 
a stronger domestic architecture, but might also complicate 
consensus planning activities.
    A second policy issue is the adaptability of the 
architecture. How adaptable is it to new threats and 
capabilities? Periodic assessment of new nuclear detection 
technologies will likely play an important role in the 
government's ability to improve the architecture. The frequency 
and formality of such assessments will affect both the utility 
and the costs associated with this process. It is noteworthy 
that the January 2010 report repeated the language of the 
previous report's technology assessment.
    Finally, a fundamental issue for policymakers is whether 
Federal investments appropriately support the needs of the 
Global Nuclear Detection Architecture. The architecture is a 
network of interrelated programs, and the ramifications of 
shifting funding between these programs may be understood best 
from a holistic architectural perspective. A single Global 
Nuclear Detection Architecture budget submitted annually as a 
budget supplement might provide policymakers with a more 
transparent correlation between agency funding and the Global 
Nuclear Detection Architecture. Alternatively, rather than 
directly increasing or decreasing program funding, policymakers 
might empower the Domestic Nuclear Detection Office Director or 
another official with the authority to review and assess other 
Department and agency investments in the Global Nuclear 
Detection Architecture and comment on or recommend alternative 
allocations.
    Detection of nuclear smuggling and prevention of nuclear 
terrorism are high national and homeland security priorities. 
This multi-agency endeavor is complex and relies heavily on 
coordination among the participating agencies. The Department 
of Homeland Security and the Domestic Nuclear Detection Office 
face significant challenges in coordinating these activities.
    Mr. Chairman, that concludes my prepared statement. I would 
be happy to answer any questions that you or other Members of 
the Committee may have.
    Chairman Lieberman. Thanks very much, Dr. Shea. We will go 
ahead with a 7-minute round of questions.
    I must say overall the reports that the three of you have 
given I think represent a real alarm bell going off about DNDO, 
and we all acknowledge that it has done some things that are 
important to us, particularly with portals, both sea and the 
established land ports. But it has not done a lot that it 
should have done, and I want to explore a bit why.
    Mr. Aloise, I was struck again by your testimony that the 
development of a strategic plan had been recommended almost 3 
years ago, and DNDO now says in its congressional budget 
justification for fiscal year 2011 that it expects to complete 
the strategic plan during fiscal year 2010.
    To the best of your knowledge--and then I will ask others 
if you have opinions--what happened here? Why didn't it do the 
strategic plan more quickly?
    Mr. Aloise. I am really not quite sure what the true answer 
is on that, but as I mentioned in my statement, almost 4 years 
ago now, they took their eye off the ball of what they were 
supposed to do, and that is, complete the architecture with 
existing equipment. And, of course, upgrading the equipment is 
something you always want to do, but the urgency of the 
situation we are facing now requires that this detection system 
be completed first with what we have now, and DNDO followed the 
path of pushing through the ASPs. It was an research and 
development (R&D) program, too early to be deployed, and we 
issued numerous reports and testified numerous times before the 
Congress and this Committee, warning them that they were 
falling into a trap, and they fell into that trap.
    Chairman Lieberman. Well, that is really important because 
you have said in that answer, I think, what is a critical 
problem here, which is that it is not just that we asked them 
to do a plan and were upset that they did not do the plan. What 
I take from your testimony is that there is an absence of a 
plan and clearly established priorities, particularly the 
priority to develop an overall architecture--which I take to 
mean how do you cover in some way all the points of 
vulnerability that we are trying to cover. Am I right about 
that?
    Mr. Aloise. You are correct, Mr. Chairman.
    Chairman Lieberman. And so they did not do that, and the 
absence of a plan certainly facilitated what it sounds to me 
like what you would say was the most significant mistake that 
DNDO has made, which was to focus on spending a lot of money 
improving their capacity to detect nuclear material coming in 
at ports of entry--where they already had some coverage--
instead of covering areas such as you mentioned in your 
statement: International rail transportation, international 
cargo, passengers, and baggage. Right?
    Mr. Aloise. That is correct, sir.
    Chairman Lieberman. Now, I want to ask Dr. Lowenthal and 
Dr. Shea to respond to that, if you agree with what Mr. Aloise 
has said.
    Mr. Lowenthal. Well, our study committee really was looking 
at the testing and evaluation of the ASPs, and not the rest of 
the Global Nuclear Detection Architecture.
    Chairman Lieberman. Right.
    Mr. Lowenthal. The reason that the committee said something 
about the Global Nuclear Detection Architecture was because 
there was some ambiguity about the mission of the ASPs and the 
objectives that they were trying to accomplish with these 
devices. And the committee could not find an articulation of 
that in the context of the Global Nuclear Detection 
Architecture. And so, yes, the committee said that the 
justification has to be there somewhere. The committee said we 
would like to see it probably in the context of a cost/benefit 
analysis for the Global Nuclear Detection Architecture, some 
trade-off studies, which would help set priorities, as you have 
described. But because it did not exist there, the committee 
recommended that they do it in the context of the ASP cost/
benefit analysis.
    Chairman Lieberman. Dr. Shea.
    Mr. Shea. To the question about the strategic plan, I would 
point out that the Global Nuclear Detection Architecture is 
implemented by many different agencies.
    Chairman Lieberman. Right.
    Mr. Shea. In DNDO's coordination role, I think that they 
are challenged to both consider the strategic purposes of those 
different programs in those different agencies and the goals of 
those programs and also have those programs align with the 
goals of the architecture. With the development of a strategic 
plan solely by DNDO it might be difficult for the agencies to 
fully adopt the purposes of that strategic plan, but also the 
development of a strategic plan by an interagency process is 
often a challenging activity. So that may be the source of some 
of the difficulties with respect to----
    Chairman Lieberman. So is part of this organizational? In 
other words, does DNDO not have adequate authority to 
coordinate across the various departments, even though the 
Homeland Security Presidential Directive 14 designated DNDO as 
the lead organization and charged it to work with the 
Departments of Defense, Energy, State, and others? Has it not 
been up to the task? And should this be raised up either to the 
departmental level or given to some centralized entity such as 
the White House or the Office of Management and Budget (OMB)?
    Mr. Shea. That certainly would be one approach to increase 
the ability of agencies to come together in an interagency 
process. I think that DNDO, of course, would be in the best 
position to answer whether or not it believes it has sufficient 
authority. But I would say also that the SAFE Port Act and 
Homeland Security Presidential Directive 14 do provide 
authority to the implementing agencies to establish policies in 
the areas that they are implementing their programs. So even 
though the Domestic Nuclear Detection Office does have the 
responsibility of developing the overarching architecture, 
those implementing agencies also have their own independent 
policy authorities in the areas where they are implementing 
programs.
    Another approach might be to provide some authority to the 
implementing agencies to develop parts of the architecture in 
conjunction with DNDO, for example, and then give DNDO the 
responsibility of integrating the different architectural 
frameworks into one more coherent and integrated architecture.
    Chairman Lieberman. Mr. Aloise, let me come back to you 
just to set the predicate here. I am right, is it not so, that 
the Homeland Security Presidential Directive 14 made clear that 
DNDO had this authority to work with other agencies for the 
specific purpose of developing the Global Nuclear Detection 
Architecture?
    Mr. Aloise. Yes, that is correct. GAO has been in this area 
a long time. We had reported in the 1990s that each of the 
agencies had their own programs--Department of Defense, 
Department of Energy, and the State Department--and a major 
problem was coordination. And DNDO had the role of coordinating 
all those activities, not managing each of them, but 
coordinating so everybody is headed towards the same goal.
    When we started our work on ASPs, what we found was a major 
management problem. DNDO was not even talking to these 
agencies. They were not telling them what they were planning to 
do with the ASP. It was GAO going in there telling them what 
was going on, and it was not a pretty scene.
    Chairman Lieberman. Your answer to the question really puts 
on the record what we forget, which is that this attempt to set 
up an architecture to prevent a terrorist nuclear attack on the 
United States did not just begin on September 11, 2001.
    Mr. Aloise. No, it did not.
    Chairman Lieberman. There was a lot of background here 
before.
    Mr. Aloise. Right. The Department of Energy has been 
securing nuclear material for years, and even the second line 
of defense program, putting in portal monitors on other 
countries' borders, and our efforts here in the United States 
began in the late 1990s.
    Chairman Lieberman. Just a last question for you. Do you 
think DNDO can do this job based on its record? Or do we need 
to kick it upstairs somehow and give it to OMB or the White 
House? I hate to do that reflexively. We give too much to the 
White House, really. So I want to invite your reaction to the 
organizational structure here.
    Mr. Aloise. I think our view is DNDO ought to use the 
powers it has been given to coordinate effectively the creation 
of this plan. And what that means is they have to get the buy-
in of the other Federal agencies, and then it is a consensus 
plan. You have your goal. You can move forward. And we need to 
move forward. So we think it can be done.
    Chairman Lieberman. Yes. Well, obviously, this is a 
critical matter of homeland security, and you hate to see 
either bureaucratic turf protection or just bureaucratic 
inertia standing in the way of getting this job done.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Aloise, I want to go back to the issue of the strategic 
plan because, like the Chairman, I think that is a really 
critical issue that you have brought to the Committee. I want 
to go back to the timeline because I actually think that the 
failure of DHS in this area is even more acute than the 
Chairman put forth.
    It was 2 years ago that GAO last recommended that DNDO 
complete a strategic plan, but it actually was more than 7 
years ago, in October 2002, that GAO first established the need 
for a strategic plan. Is that correct?
    Mr. Aloise. That is correct, Senator, yes, and we were 
recommending that Customs and Border Protection (CBP), or at 
that time the Customs Service, develop that plan.
    Senator Collins. So if the Department issues the strategic 
plan for Global Nuclear Detection Architecture this fall, it 
will actually be about 8 years since GAO first made that 
recommendation.
    Mr. Aloise. That is correct.
    Senator Collins. That is so troubling to me given what is 
at stake, and I know that it is to the Chairman as well. I am 
wondering if this is a case where the Department became so 
entranced with upgrading the technology of the radiation portal 
monitors that, as you put it, it dropped the ball; and instead 
of focusing on the gaps in the system, it just became entranced 
by the technology. Is that a fair assessment based on your 
analysis?
    Mr. Aloise. I think it is, Senator. I think there was this 
promise from the ASPs--which, by the way, is not new 
technology. What was new was the software.
    Senator Collins. Correct.
    Mr. Aloise. And there was a lot of marketing going around 
that this was the silver bullet. But we had looked at that 
technology and we had looked at the promise it offered, and 
even our earliest review back in 2006 said this will only be a 
marginal improvement, so, CBP, DNDO, and DHS need to do a cost/
benefit analysis to see if it is going to be worth that 
marginal improvement, because if you are spending money on 
ASPs, you are taking money away from somewhere else.
    Senator Collins. And, Mr. Lowenthal, when you looked at the 
ASPs, did you look at how much money was spent by the 
Department on this technology? And as GAO has pointed out, it 
was actually a software upgrade. Did you look at the amount of 
money spent?
    Mr. Lowenthal. We were focused on the cost of the devices 
going forward, their life cycle costs and whatever benefits 
they might offer. We did not look at the historical investments 
within the ASP program and how they might have been spent 
otherwise because the committee was chartered to look at the 
testing and evaluation rather than whether DNDO is carrying out 
its larger mission properly.
    Senator Collins. Correct me if I am wrong, Mr. Aloise, but 
I think the Department spent in the neighborhood of $2 billion 
on the ASP technology. Do you know if that is correct?
    Mr. Aloise. Well, that was what was planned to be spent.
    Senator Collins. Planned to be spent.
    Mr. Aloise. Yes. They have spent so far--not counting 
testing--$224 million. We have actually asked for more updated 
information. We wanted it for this hearing, but they did not 
provide it to us yet. Hopefully they will have it for the next 
hearing.
    Senator Collins. I guess what is so troubling to me is here 
the Department was prepared to invest $2 billion in one kind of 
technology when, in fact, it had never worked out a plan for 
railroads or for other means of smuggling nuclear materials 
into the country; and then when the technology did not prove to 
be as effective as hoped, there is this diversion of attention, 
money, energy, to just one kind of technology. And I think you 
put it so well that then what happened is the Department took 
its eye off the ball and, thus, we are faced with the situation 
that we have now.
    Dr. Shea, you raised a really good point, that there are a 
number of other departments that play a role--Energy, State, 
Defense, as well as Homeland Security. Isn't that the reason 
that having a strategic plan becomes even more important? How, 
otherwise, do you know the investments that are going to be 
made by other departments?
    Mr. Shea. Yes, I agree. The agencies themselves have their 
programmatic priorities and invest in those programs trying to 
meet the programs' goals. But absent a strategic plan that lays 
out what the architecture's goals are and how to measure 
success towards those goals, it could be very difficult for an 
agency to be investing with that purpose in mind, they would 
not have that information to bring into their budgeting 
process. So I think that a strategic plan that lays out the 
strategic goals of the architecture and provides metrics within 
that strategic plan for the agencies to align their program 
goals with is key for getting all of the agencies to work 
together in the same direction.
    Senator Collins. And it also ensures that resources are 
going to be allocated appropriately.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins.
    I have a couple more questions. Let me go back to you, Mr. 
Aloise. At the outset, you talked about the difficulty of 
dealing with some of the areas of the Global Nuclear Detection 
Architecture that DNDO has not dealt with. You mentioned, for 
instance, the length of freight trains coming in from Canada, 
let us say. Do you have any doubt that this is an achievable 
task that we are giving DNDO? In other words, it may be 
difficult, but am I correct that you believe it is doable if 
they had concentrated on establishing essentially at least 
baseline defenses all across our country as opposed to focusing 
on the portals?
    Mr. Aloise. Actually, we do believe it is doable. We are 
not going to say it is easy, but we have gone around the 
country and looked at train depots, and we have seen where 
people have set up train portal monitors at certain choke 
points. It is not going to work everywhere, but there are 
certainly ways, if given the resources and analysis, you could 
do it.
    So, yes, we do believe it can be done. In fact, when DNDO 
made the push for ASPs and their proposal was to spend $2 
billion, they said they could do trains. Now they say they 
cannot, and they have to develop a new technology. We are not 
sure a new technology is needed, but it may be. There may be 
emerging technologies out there that would help.
    Chairman Lieberman. They said at that point that the ASPs 
could deal with the international rail cargo as well.
    Mr. Aloise. Yes, the ASPs were to cover almost all forms of 
entry into the United States.
    Chairman Lieberman. And now they conclude that they cannot.
    Mr. Aloise. Right.
    Chairman Lieberman. Give us an overall view on the public 
record here about whether there is any work going on within 
DNDO now in these areas of the architecture that they have at 
least underattended to.
    Mr. Aloise. There are studies going on. There are 
discussions going on. There is very little that actually has 
been done. In the green borders between ports of entry, they 
are starting to talk about using law enforcement more, which 
makes sense. They are not going to seal the borders, but they 
are going to have a presence at the borders.
    Chairman Lieberman. And when they say law enforcement, what 
do they mean?
    Mr. Aloise. Well, have a presence at the borders with 
customs officials.
    Chairman Lieberman. Customs and Border Protection.
    Mr. Aloise. Right, which sort of mirrors what the State 
police do in hunting down speeders on your highways. You do not 
know where they are, but you know they are out there, and you 
could be caught if you speed. So it is a deterrent. And we 
actually think that has merit, and they are looking at that.
    Chairman Lieberman. Years ago, when I acquired a burglar 
alarm system for my house, at the end of the installation the 
man doing it gave me the stickers for the windows and the doors 
and said, ``Ninety-five percent of what you are paying for are 
these stickers.'' And he was an honest man. So I get your 
point.
    I want to get to the question about whether there ought to 
be some consolidation across governmental departments of 
budgets and authority with regard to nuclear detection and ask 
each of you if you have a thought on that. I know we have said 
that DNDO has the authority under the Presidential Directive. 
Is there some value to the Committee, even by legislation, 
considering centralizing more of that budget authority for this 
function as a way to basically compel the various departments 
to work together?
    Mr. Aloise. I guess I will go first.
    Chairman Lieberman. Please.
    Mr. Aloise. I think our position is--and I know I sound 
like a broken record here--we would like to see a plan first on 
how we are going to complete this architecture. And by looking 
at the plan, where our resources will be devoted, what our goal 
is, and how fast we are going to get there, then I think we 
could see if anything else is needed beyond that to get this 
job done. But until we know what the job is, I am not sure what 
fixes we could put in place.
    Chairman Lieberman. Good enough. Dr. Lowenthal, do you have 
an opinion on that
    Mr. Lowenthal. Yes, the report did not address this, so I 
will just say a few words.
    First of all, the academy does not tell the Federal 
Government how it should reorganize itself unless sopecifically 
asked. It highlights problems and maybe some options for how to 
do it.
    Chairman Lieberman. You are really different than the rest 
of America in that regard. [Laughter.]
    Mr. Lowenthal. But I think that what Mr. Aloise said is 
very consistent with what the Committee said in its report, 
which is that you need to establish what the priorities are in 
order to make trade-off decisions. And without a plan, it is 
hard to do that.
    Chairman Lieberman. Dr. Shea.
    Mr. Shea. As I believe all the witnesses have said, there 
are many agencies that are participating in the Global Nuclear 
Detection Architecture, and some of the programs of those 
agencies, they are not solely dedicated to nuclear detection. 
Bringing all of the budgets together into a single authority 
might pose challenges, especially for the programs that have a 
shared responsibility between nuclear detection and some other 
role.
    That said, the current budgetary cross-cut for the Global 
Nuclear Detection Architecture is retrospective in nature. It 
appears in the Joint Annual Interagency Review report, and as a 
consequence, for planning purposes, it is not presented to 
Congress at a time that would allow it to influence, for 
example, budgetary decisions that were being made by Members of 
Congress and congressional committees. If the request from the 
President's budget was cast in such terms as is used in the 
Joint Annual Interagency Review, then perhaps that would 
provide some transparency for congressional policymakers in how 
the funding at the various agencies is feeding into the Global 
Nuclear Detection Architecture.
    Chairman Lieberman. Based on what you know about the 
development of the ASP at this point, would you recommend that 
DNDO just stop any further work on the ASP and really focus on 
the development of the parts of the nuclear detection 
architecture that are undeveloped, the ones we have been 
talking about all along, the areas essentially outside of the 
official portals of entry?
    Mr. Aloise. I think it would be our view that, yes, even if 
you deploy the ASP, it is going to be of marginal value. And 
what we need to do is close the gaps in the architecture first.
    Chairman Lieberman. Dr. Lowenthal, do you have an opinion 
on that?
    Mr. Lowenthal. No, and I will just tell you what the 
academy is doing at this point.
    Chairman Lieberman. Go ahead.
    Mr. Lowenthal. DNDO has been trying to respond to the 
recommendations in our report from last year, and so our study 
committee has been reconvened to evaluate their progress on 
that. We are not going to come out in the end with any kind of 
conclusion as to whether the ASPs should be terminated, 
continued, or expanded.
    Chairman Lieberman. Dr. Shea.
    Mr. Shea. I think that the cost/benefit analysis that the 
Department is currently performing with respect to the ASP 
program will likely inform the office as to whether or not this 
investment is a good investment for them to continue or not. 
One of the recommendations out of the Nuclear Regulatory 
Commission (NRC) interim report was that such a cost/benefit 
analysis be done in the greater context of the architecture, 
and I think that the results of such an analysis would inform 
that question as to whether or not continued investment in the 
ASP would be beneficial.
    Chairman Lieberman. But at this point, you are not prepared 
to reach a conclusion yourself?
    Mr. Shea. I do not think that I have the information.
    Chairman Lieberman. Understood. Thanks. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    The Chairman has raised an important issue about whether 
government is organized correctly to have sufficient 
coordination, and he raised the issue of whether there needs to 
be a position within the White House or OMB. In fact, there 
already is a position. It was created in 2007, and it is within 
the Executive Office of the President, and it is the 
Coordinator for the Prevention of Weapons of Mass Destruction, 
Proliferation, and Terrorism.
    The reason no one remembers this position is neither the 
Bush Administration nor the Obama Administration has ever 
filled this position, which is a presidentially nominated, 
Senate-confirmed position. So I do not think the problem is the 
need for the creation of a new position. I think the problem is 
that this position has not been filled. And that is an 
editorial comment rather than a question for our witnesses.
    Chairman Lieberman. I just want to join you in that op-ed. 
[Laughter.]
    Senator Collins. Thank you, Mr. Chairman.
    I just have one final question, and it is for our GAO 
witness. The GAO today is releasing a report that assesses DHS 
management of its complex acquisitions. It finds that in almost 
half of the DHS programs reviewed, there were no baseline 
requirements for the program until more than 2 years after the 
program began. Obviously, it is very difficult to have a 
successful acquisition if you start the acquisition before you 
establish the requirements.
    Aren't we seeing some similar things when we look at DNDO's 
acquisitions in the ASP program and, in general, its failure to 
produce a plan before acquiring the equipment and technology?
    Mr. Aloise. Yes, Senator, it is very similar. The ASP 
program had no mission needs statement, had no cost/benefit 
analysis, had no life cycle cost analysis, and still does not 
have a plan. It was not until 2007 when the appropriations act 
said the testing should meet a significant increase in 
operational effectiveness before certification, and it was not 
until August 2008 that there were even any criteria established 
for that language. So, yes, it is eerily similar.
    Senator Collins. It is, and I appreciate your confirming 
that because this is a problem that seems to permeate several 
agencies within DHS acquisitions, and it causes schedule delays 
and cost overruns and the procurement of the wrong kind of 
technology. We saw it with the puffer detectors that the 
Transportation Security Administraiton (TSA) used at airports 
that turned out not to work. And straightening out that 
fundamental planning process to me is absolutely critical, and 
I think, unfortunately, the ASP program and the failures at 
DNDO are regrettably additional examples of that. And when it 
comes to DHS, the consequences for the security of our Nation 
are enormous. So we have to get this right.
    Mr. Lowenthal. Senator, can I add something?
    Senator Collins. Yes.
    Mr. Lowenthal. I think the academy report endorsed what Mr. 
Aloise was saying and what you have said about articulating 
what the needs are before you procure. The academy report also 
said something more about how they should do this, how they 
should proceed with deployment if they determine that they have 
promise there. And it is not that they should make a single 
decision that then means that they put these everywhere, that 
they should instead deploy them in a limited number of places, 
and see how they perform. These are complex pieces of 
equipment, and the software is complex as well. And so this 
should be an incremental deployment with some iterative 
performance enhancements as they go rather than just one big 
purchase.
    Senator Collins. I agree. Dr. Shea, do you have anything to 
add to this?
    Mr. Shea. I do not have anything to add.
    Senator Collins. Thank you very much, and I want to thank 
the Chairman for holding this hearing.
    Chairman Lieberman. Thank you, Senator Collins, for your 
partnership in this. Thanks to the witnesses. I know that in 
many ways you spend a lot of time and quite hard work, but I 
really want to thank you because that work today has helped 
inform the Committee, and you have really, from my point of 
view, focused some tough questions. Some might say this has 
been an indictment of past behavior but certainly a critique of 
past behavior by DNDO and the Federal Government generally on 
this critical question of homeland security. But more to the 
point now, going forward, you have focused some questions for 
the Department of Homeland Security to answer, and, again, we 
are going to make clear to them--I hope somebody is here from 
the Department; if not, we are going to ask them to read the 
testimony--that they must be prepared to come in here on July 
21 and answer the questions that your work and testimony and 
the Committee have posed. And hopefully those answers will then 
lead to corrective action so we will not have to be back here a 
year from now with all or some of you telling us that they 
still have not plugged the gaps that we need to have plugged. 
So I thank you.
    Do you want to add anything, Senator Collins?
    Senator Collins. I do not. Thank you.
    Chairman Lieberman. The record of the hearing will remain 
open for 15 days for submission of additional statements or 
questions. Again, I thank you very much.
    The hearing is adjourned.
    [Whereupon, at 11:08 a.m., the Committee was adjourned.]


    NUCLEAR TERRORISM: STRENGTHENING OUR DOMESTIC DEFENSES--PART II

                              ----------                              


                     WEDNESDAY, SEPTEMBER 15, 2010

                                     U.S. Senate,  
                       Committee on Homeland Security and  
                                      Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Akaka, and Collins.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning. The hearing will come to 
order.
    This is the second part of the Committee's investigation of 
efforts by the Department of the Homeland Security (DHS) to 
strengthen our Nation's defenses against the threat of nuclear 
terrorism. I want to welcome Deputy Secretary of Homeland 
Security Jane Holl Lute, who will be our primary witness today, 
as well as the new Director of the Department's Domestic 
Nuclear Detection Office, Warren Stern, and representatives 
from other DHS agencies that have important roles to play in 
preventing a nuclear terrorist attack.
    The first thing to say is that this threat is real. In 
fact, the National Security Strategy released by the 
Administration in May contained the following stark warning, 
``The American people face no greater or more urgent danger 
than a terrorist attack with a nuclear weapon. Black markets 
trade in nuclear secrets and materials. Terrorists are 
determined to buy, build, or steal a nuclear weapon.''
    At Part I of this hearing on June 30, witnesses from the 
Government Accountability Office (GAO), the Congressional 
Research Service (CRS), and the National Academies of Sciences 
testified that one of the key offices assigned to protect us 
from this threat, which is the Domestic Nuclear Detection 
Office (DNDO), is woefully behind in its planning and 
implementation efforts, despite $2 billion in funding since it 
was created in 2005 as an office within the Department of 
Homeland Security. And since our last hearing, DNDO has 
provided further financial information to GAO that shows 
another $2 billion was spent department-wide by Homeland 
Security in support of the Domestic Nuclear Detection Office's 
mission.
    And what has that $4 billion bought over 5 years? In part, 
that money has gone to expanding existing programs at Customs 
and Border Protection (CBP), the Coast Guard, the 
Transportation Security Administration (TSA), and other DHS 
agencies that are critical to our defenses against nuclear 
terrorism. But, unfortunately, there is too much evidence that 
very little progress has been made with the funds that have 
been targeted to enhancing our current nuclear detection 
capabilities.
    Most importantly, the overall nuclear terror defense plan 
DNDO has been working on since it was created now 5 years ago, 
the Global Nuclear Detection Architecture, is still not 
completed. And, in fact, last year, DNDO officials concluded 
that the plan they were developing was too dependent on 
unproven technologies and did not take into consideration the 
contributions that law enforcement and intelligence agencies 
could make with their existing assets.
    I appreciate that designing a global system of systems and 
coordinating the activities of agencies and other departments 
that are part of that system is a big challenge. But the threat 
is enormous here, and the size of the challenge, therefore, 
cannot explain away the failure of DNDO to develop a strategic 
plan for strengthening parts of the domestic layer of the 
architecture operated within the Department of Homeland 
Security and help guide the nuclear detection investments by 
its fellow DHS agencies. So that will be a focus, the primary 
focus of this hearing.
    In our previous hearing, we also heard that DNDO has spent 
hundreds of millions of dollars trying to develop new radiation 
detection technology known as the Advanced Spectroscopic Portal 
(ASP), that the GAO concluded is only marginally better than 
what we have now. GAO has also provided the Committee details 
about the failure of a second large DNDO technology investment 
known as the Cargo Advanced Automated Radiography System 
(CAARS). According to GAO, the Nuclear Detection Office awarded 
contracts for the CAARS systems without ever determining if the 
system could be used in domestic ports of entry or whether it 
would meet the requirements of the Customs and Border 
Protection agency, which is on the front lines of protecting 
our borders.
    GAO estimates that DNDO has spent approximately $400 
million combined on the ASP and CAARS programs with little or 
nothing to show for it. GAO also contends that had DHS 
completed its strategic plan before making these investments, 
it might well have considered the security benefits of other 
mobile or portable detection systems.
    Last year, GAO strongly recommended that DHS ``develop a 
strategic plan for the domestic part of the Global Nuclear 
Detection Strategy to guide the domestic nuclear detection 
investments of DHS agencies.''
    This is sound advice, but it apparently has not been 
followed by DHS or DNDO in making expensive decisions about the 
investments that they are making here at home. So this morning 
we really need to hear a direct response from DHS to these 
criticisms, and we need to know what corrective actions are 
being taken now.
    Because our Committee wants to make sure that in carrying 
out our oversight responsibilities we do not cause the 
revelation of any information that could be exploited by our 
enemies, the hearing will adjourn at the appropriate time, to 
be resumed in closed session in the Senate Security offices.
    Finally, I would say that the problems that are facing the 
Domestic Nuclear Detection Office and the Department of 
Homeland Security in our efforts generally to design and 
implement the Global Nuclear Detection Architecture are not 
new, and they have been well documented. We held hearings on 
this topic during the previous Administration, but now this 
Administration is in charge and must step up to the plate and 
close this gap in our defenses against nuclear terrorism.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman. Thank you for 
holding this second hearing on the efforts of the Department of 
Homeland Security to prevent nuclear terrorism against our 
country.
    At our first hearing, we examined the Department's 
inexplicable failure to complete a much needed strategy to 
address this growing threat. As the Chairman has pointed out, 
we know that time is not on our side. The 2008 report by the 
Commission on the Prevention of Weapons of Mass Destruction 
predicted that it is more likely than not that a weapon of mass 
destruction (WMD) will be used in a terrorist attack somewhere 
in the world by the end of 2013. There is no more alarming 
prospect than that of a nuclear September 11, 2001.
    After all, a nuclear bomb is the ultimate terrorist weapon, 
causing an unimaginable amount of death, suffering, and 
horror--precisely the kind of frightening and inhumane outcome 
that terrorists seek.
    Terrorists have made clear their desire to secure a nuclear 
weapon. Given this stark reality, we must ask: What has the 
Department done to defend against nuclear terrorism on American 
soil? The answer, unfortunately, is: Not enough . . . not 
nearly enough.
    Today the Department still lacks a strategic plan for the 
Global Nuclear Detection Architecture, a necessity first 
identified by the Government Accountability Office nearly 8 
years ago. We cannot wait another 8 years or even another 8 
months. The Department must complete this plan now.
    As the Chairman has indicated, the office charged with this 
effort at DHS, the office known as DNDO, has seemed more intent 
in the past on investing in new technology than on the nuts and 
bolts planning that should guide these acquisitions. The 
office, for example, has spent approximately $282 million over 
nearly 5 years on the Advanced Spectroscopic Portal Program, 
with the goal of developing the next-generation primary cargo 
scanning technology to detect unshielded nuclear and 
radiological materials. But in February 2010, DNDO announced 
that the ASP was no longer being pursued as a possible primary 
scanning technology and now was only being looked at as a 
possible secondary scanning technology. Unfortunately, the GAO 
has determined that the technology is only slightly better than 
the existing monitors.
    GAO's statement for the record today highlights problems 
with another scanning technology mentioned by the Chairman that 
would X-ray the contents of cargo containers. GAO found that 
DNDO failed to adequately communicate with Customs and Border 
Protection about such basic issues as how large the equipment 
could be to still fit within the port of entry inspection 
lanes. I must say this is so frustrating. One of the reasons 
that we worked so hard to bring all of the agencies together 
under the umbrella of the Department of Homeland Security was 
to enhance communication and to ensure that the right hand 
knows what the left is doing. So to have this so basic a 
communications lapse is really discouraging and inexcusable.
    After more than 2 years of work, DNDO has decided to cancel 
the acquisition of this technology and focus on more research 
and development. DHS must be a responsible steward of taxpayer 
dollars. Time and money have been wasted as DNDO has focused 
almost completely on marginal improvements in technology, 
rather than on identifying gaps in coverage and then 
determining the appropriate technology to eliminate those gaps. 
And as the Chairman indicates, this problem started in the 
previous Administration, but it is discouraging to not see more 
progress in this Administration which is now in charge.
    Moreover, troubling gaps continue to exist that could be 
exploited by terrorists seeking to smuggle illicit nuclear 
materials into the United States. We know that terrorists are 
constantly probing and testing our vulnerabilities.
    Now, to be sure, the Department deserves credit for 
deploying more than 1,400 radiation portal monitors, allowing 
nearly 100 percent of cargo entering our seaports and nearly 
100 percent of vehicle traffic on the southern and northern 
borders to be scanned for unshielded nuclear material, and that 
is significant. But cargo coming into this country by rail from 
Canada or Mexico is still not scanned, and only a small 
percentage of international air cargo is scanned. Effective 
scanning technology for these shipments would form an important 
part of a layered, risk-based defense to nuclear terrorism.
    Let me go back, however, to what I see as the essential 
issue, and that is the lack of a strong strategic plan to 
establish priorities, identify gaps, and to give our tactics 
cohesion. Without that, we are going to continue to see slow 
progress in an effective defense against terrorists' nuclear 
ambitions. This strategy should also include a comprehensive 
cost/benefit analysis that accounts for currently available and 
potential future technologies as well as the personnel, 
intelligence, and infrastructure needed to combat this threat.
    In addition, to improve the coordination across government, 
President Obama must appoint a coordinator for the prevention 
of weapons of mass destruction, proliferation, and terrorism as 
required by the 2007 Homeland Security Act written by the 
Chairman and myself. This coordinator would help promote the 
interagency collaboration needed to develop and implement an 
effective strategy.
    Inadequate planning causes schedule delays, cost overruns, 
and the procurement of the wrong kinds of technology at great 
cost to the taxpayer. And when we are talking about preventing 
nuclear terrorism, those failures can lead to catastrophic 
consequences for our Nation.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins.
    Deputy Secretary Lute, thank you for being here. You are in 
the hot seat, I suppose, this morning because you can sense or 
hear the frustration that the Committee has with how this 
responsibility has been advanced over these two 
Administrations, and that frustration has been deepened, of 
course, by the independent reports, including GAO's. So I am 
very anxious to hear your response to those critiques and where 
you are going to lead the effort now.

  TESTIMONY OF HON. JANE HOLL LUTE,\1\ DEPUTY SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Ms. Lute. Well, thank you very much, Mr. Chairman, and good 
morning. Good morning, Senator Collins.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Lute appears in the Appendix on 
page 82.
---------------------------------------------------------------------------
    Members of the Committee, it is my pleasure actually to be 
here before you today to discuss efforts by the Department of 
Homeland Security to increase our security and reduce the risk, 
as you both have pointed out, of nuclear terrorism.
    Countering threats from terrorism is the Department's 
primary mission, and preventing nuclear terrorism has been and 
remains among our top-most priorities. The Department's first 
Quadrennial Homeland Security Review, which we released this 
year, reaffirms this critical mission. DHS cannot meet this 
challenge alone. Other Federal departments and agencies are and 
must be engaged in this effort, as must State and local law 
enforcement agencies, governments, and other responsible 
parties around the world, as well as international 
organizations such as the International Atomic Energy Agency 
(IAEA).
    Since the establishment of DNDO in 2005, this Committee has 
engaged with the Department on the full range of issues 
associated with preventing terrorists' use of nuclear weapons, 
and we respect and appreciate that engagement and understand 
the frustrations that have been expressed this morning. My 
remarks today will focus on the core tasks we believe are 
inherent in effective detection and interdiction, namely, 
anticipating the threat and preventing hostile use.
    This is a tough set of issues, as this Committee knows. We 
believe we now have a better understanding of the challenges 
that are posed by the limitations of technology, by operational 
constraints, and by issues related to the scale of the 
challenge of interdicting and detecting illicit nuclear 
trafficking across or within our borders. And we must do more, 
as you have noted, to synchronize and integrate the efforts of 
all actors to fill gaps and minimize vulnerabilities.
    Noting these challenges, however, should not detract from 
progress that we have made in extending the coverage of our 
domestic nuclear detection capabilities and increasing the 
capacities of technologies and processes that are at the heart 
of that coverage. I will address this progress but also the 
challenges in greater detail when we have an opportunity to 
meet in closed session. I do want to note that we have seen a 
major expansion, as Senator Collins has noted, of monitors at 
our Nation's ports of entry and at other locations, detectors 
along our land and maritime borders, and there have been 
sizable increases in the development, testing, and evaluation 
of new detection systems. We have increased the training of 
qualified detection officials and been continuing to work on 
the development of new materials for potential future use.
    As you have noted, I am pleased to acknowledge that DNDO 
has a newly appointed Director, Warren Stern, whose expertise 
and experience is valuable and will be directed and put to 
great aggressive, vigorous use, as the leadership of DNDO. And 
I know that the Committee is keenly interested in discussing 
DNDO's programs further with him.
    One of DNDO's core mandates is to develop the strategic 
framework for a Global Nuclear Detection Architecture (GNDA), 
which is a risk-informed, multilayered network designed to 
detect illicit radiological and nuclear materials or weapons 
and is, therefore, a key part of our overall effort to prevent 
nuclear terrorism. I acknowledge the Committee has been 
expecting this for some time. I acknowledge, understand, and, 
in fact, share the frustration that this has not yet been 
presented. That work is progressing, and we expect the 
strategic plan to be completed by the end of the year, as I 
have already testified before this Committee.
    I know the Committee is also keenly interested in DNDO's 
Advanced Spectroscopic Portal monitoring program. Again, I will 
reserve more detailed comments for our closed session regarding 
ASP.
    This program has taken longer than anticipated, and while 
its likely deployment in secondary screening differs from the 
original plan, we believe it will offer a significant 
contribution to our nuclear detection capabilities.
    Moreover, many of the problematic aspects of ASP have 
stemmed from our immaturity in developing and managing large 
acquisition programs, and I believe that we have built on the 
progress achieved by the leaders who preceded us at DHS and on 
the work that has been ongoing to establish a much more 
rigorous process for establishing requirements at the outset, 
knowing what we need as an operational Department, and ensuring 
that those requirements are validated through rigorous 
operational testing. This was not the case when ASP was started 
in 2005.
    The Department has also recently established a Nuclear 
Terrorism Working Group staffed by the heads of key components 
in the Department. I chair it. We meet weekly. The working 
group examines the Department's role and activities, the 
components' roles and activities, and coordinates those 
activities with DNDO and also with our Science and Technology 
Directorate, headed up by Under Secretary Tara O'Toole, who is 
also with us today. And we want to understand and develop our 
plan for meeting the operational challenges on the ground.
    DHS is now 7 years old, but as I have said to this 
Committee before, it is not 1 year old for the seventh time. A 
lot of progress has been made in those 7 years thanks in large 
part to the aggressive, continued focus of this Committee and 
the dialogue between us.
    The Department has matured. Our understanding of the threat 
has matured, and we have developed and tested several 
technologies and explored operational requirements to devise 
solutions for the gaps that arise.
    For decades, the United States has led the world in efforts 
to control nuclear weapons and materials and more recently to 
counter the threat of nuclear terrorism. As the President 
announced in his Prague speech of April 2009, the United States 
intends to pursue a new international effort to secure all 
vulnerable nuclear material around the world within 4 years. 
Smuggling of nuclear materials has occurred, only in small 
quantities that we know of thus far, and it remains a grave 
concern. Controlling it is a very high priority.
    While the ultimate aim of the United States is to make 
nuclear terrorism near to impossible, our immediate goal is to 
make it a prohibitively difficult undertaking for any 
adversary.
    But the responsibility to increase security and reduce the 
overall risk of nuclear terrorism is not owned by any one 
office, department, or even government. It must be a collective 
effort.
    Thank you again for this opportunity to come and speak with 
you today about the Department's nuclear terrorism prevention 
efforts. Mr. Chairman, I have submitted my full testimony for 
the record, and I look forward to your questions.
    Chairman Lieberman. Thanks, Deputy Secretary Lute. We will 
go ahead with 7-minute rounds of questions.
    I must tell you--and I will go back again over your 
prepared testimony, which I looked at yesterday--that I am 
somewhat disappointed because a number of the questions that 
the Committee specifically posed to you in our invitation to 
testify today have not been dealt with, nor have there been 
specific responses to the GAO, CRS, or Academy of Sciences' 
critiques. Now, maybe some of those you are going to give us in 
the closed session, but we have a lot of work to do. And, 
again, I come back from this statement that the GAO prepared a 
statement for the record today. Have you had a chance to see 
that?
    Ms. Lute. No, Senator, I have not.
    Chairman Lieberman. Well, I want to ask you to take a look 
at it and then respond in writing. In one case, they added a 
new--I will call it an accusation, that the Department has been 
misleading Congress with regard to the CAARS program. That is a 
serious question, and I think it is very important that you 
respond to it as soon as you can.
    They also say in the statement filed for the record of this 
hearing, and I quote again, ``To date, DHS has spent $4 billion 
on various aspects of the Nuclear Detection Architecture, but 
has not developed a strategic plan to guide its efforts to 
develop and implement this architecture, as we recommended in 
2008.''
    And I know you expressed your own frustration with that. We 
are now more than a year and a half into this Administration. 
What is holding up that strategic plan? Why hasn't it been done 
earlier, either by the previous Administration or this one?
    Ms. Lute. Mr. Chairman, there are probably a number of 
reasons that account. They may sound like excuses. It is not my 
inclination to offer excuses. We now have a non-acting, head of 
DNDO.
    Chairman Lieberman. Right.
    Ms. Lute. We have established an interagency group at the 
Assistant Secretary level to guide and complete the 
implementation of the GNDA Strategic Plan. And we now have that 
strategic plan in draft form. So what I can tell you is that, 
notwithstanding the lack of progress made to date, we expect to 
deliver that plan before the end of this calendar year.
    Chairman Lieberman. Well, the sooner the better, obviously. 
I wonder if you are in a position to indicate to the Committee 
in generality what the content of the plan will be. In other 
words, will there be sufficient detail to enable DHS and the 
Federal Government to accomplish what it set out to do 5 years 
ago?
    Ms. Lute. This is going to be a strategic plan, Mr. 
Chairman, and as such, it will outline the vision, the goals, 
the objectives, and the performance metrics. It will 
necessarily be followed by an implementation plan which will 
look specifically at the existing architecture that we have in 
the domestic environment, look more specifically at those gaps, 
and identify concrete pathways with respect to procedures, 
acquisition, training techniques, and other elements necessary 
to put that plan to full effect.
    Chairman Lieberman. In the final version of your prepared 
statement for this morning, which we saw later yesterday 
afternoon, it looked to me like you were saying that DHS wanted 
to de-emphasize the domestic part of the Domestic Nuclear 
Detection Office's role and to emphasize the global aspects of 
the role. Did I read that correctly?
    Ms. Lute. That may be due to the inadequacy of my drafting, 
Mr. Chairman. By no means.
    Chairman Lieberman. That is not your intention?
    Ms. Lute. By no means. There are, points of activity on 
both fronts, both domestically and abroad, but the focus of the 
domestic office begins domestically.
    Chairman Lieberman. Has to be domestic, of course. I 
appreciate that and am reassured to hear that.
    As I understand it, since 2005, DNDO has spent, as I said, 
about $400 million researching, developing, and testing the 
CAARS machines and ASPs. You have had a chance now to look over 
this, I presume, and I want to know what your conclusions are 
about why DNDO put such a large investment into these devices. 
Maybe, to the best of your ability before you answer, you 
should give us a brief lay person's description of CAARS and 
ASPs.
    Ms. Lute. So I will speak to this to a certain degree, Mr. 
Chairman. I am not an expert.
    Chairman Lieberman. Yes. If you want to call somebody else 
up for the technical detail.
    Ms. Lute. But we can also discuss some of this in the 
closed hearing, with your indulgence.
    Chairman Lieberman. Right.
    Ms. Lute. I thank you for that invitation, so if I need to 
use a lifeline, I will.
    Chairman Lieberman. OK.
    Ms. Lute. But ASP essentially is the next generation of 
detection technology to be used at our ports of entry to screen 
cargo. Why did we want it? We wanted it because we bring in 
between 20 and 25 million containers of cargo annually, and we 
need to be able to screen that cargo or scan that cargo. And we 
also need to be able to keep commerce moving. We pursued ASP as 
a fast means to detect reliably dangerous materials and fill 
gaps that we had.
    Chairman Lieberman. That was presumably better than the 
current system? That was the goal.
    Ms. Lute. That was the goal. We have learned some things. 
We were perhaps too aggressive in trying to field unproven 
technology. We have also known very fundamentally that good 
programs have to be supported by good process, and good process 
helps in turn generate good programs. We now have a solid 
acquisition system in the Department, a management directive 
that covers it, and that takes these large, complex 
requirements to which we are trying to match novel 
technologies, and walks us through the discipline of oversight 
and engagement at every step of the way.
    The test results of ASP, if we want to go into detail, Mr. 
Chairman, with your permission, we will wait until the closed 
session. But we did want it there fast in order to reduce false 
positives and improve our capability both for detection and for 
throughput.
    Chairman Lieberman. How about the CAARS program?
    Ms. Lute. So this was a Cargo Advanced Automated 
Radiography System and, again, part of a multilayered defense 
that we have, and we are not pursuing it. Beyond that, Mr. 
Chairman, I would like to go into closed session.
    Chairman Lieberman. Do you draw any general lessons from 
these two investments about what should happen going forward? I 
mean, obviously, they had good intentions, but they both sound 
like they represented a considerable waste of money.
    Ms. Lute. Yes, Mr. Chairman, I think there are some lessons 
learned. Hope is not a method. We need to rely on the accuracy 
of our understanding of the operations of this Department. This 
is an operational Department. Technology must work in the 
field. It must solve the problems that we have in the field. We 
know this intuitively. You know it if you are an operator. And 
now we have built our ability to test equipment before it is 
fielded with field testing into our acquisition system.
    We know that, again, good programs have to be supported by 
good processes, and the process itself does begin with a deep 
understanding of exactly what our requirements are from an 
operator's point of view. In both of these cases, as Senator 
Collins has pointed out, it is unacceptable that our research 
and development arm would not talk to our operating arms.
    Chairman Lieberman. I agree.
    Ms. Lute. It is unacceptable.
    Chairman Lieberman. So, presumably, that is one thing that 
is not going to happen again.
    Ms. Lute. No, not if I can help it.
    Chairman Lieberman. Yes. And the Department maintains the 
goal of improving the current monitoring equipment that we 
have?
    Ms. Lute. We do.
    Chairman Lieberman. Am I right that the Department has over 
the last 5 years, and more, increased the number of monitors at 
ports of entry?
    Ms. Lute. We have.
    Chairman Lieberman. Significantly.
    Ms. Lute. We have, and we are prepared to share greater 
detail in closed session.
    Chairman Lieberman. My time is up, but I want to indicate 
to you that in the GAO statement for the record today that I 
referred to, the charge of misleading was specifically with 
regard to the CAARS program, and I will quote from it. ``The 
description of the progress of the CAARS program used to 
support funding requests in DNDO's budget justifications was 
misleading because it did not reflect the actual status of the 
program. For example, the fiscal years 2010 and 2011 DHS budget 
justifications both cited that an ongoing CAARS testing 
campaign would lead to a cost/benefit analysis. However, DNDO 
officials told GAO that when they canceled the acquisition part 
of the program in 2007, they also decided not to conduct any 
associated cost/benefit analysis.''\1\
---------------------------------------------------------------------------
    \1\ The prepared statement from GAO appears in the Appendix on page 
99.
---------------------------------------------------------------------------
    So that is a troubling statement. Part of that--it sounds 
like it happened on your watch with regard to the budget, so I 
hope you will take a quick look at that and respond.
    Ms. Lute. Mr. Chairman, I apologize. Just before walking 
in, I did see that statement. I did not realize it was 
presented for the record of this hearing. I will certainly 
revert back to the Committee with a written answer.\2\
---------------------------------------------------------------------------
    \2\ The response from DHS appears in the Appendix on page 111.
---------------------------------------------------------------------------
    Chairman Lieberman. OK, because it is a serious charge, 
obviously.
    Ms. Lute. Absolutely.
    Chairman Lieberman. In terms of our trust from both 
branches of government. Thank you.
    Senator Collins.
    Senator Collins. Mr. Chairman, I am going to pick up 
exactly on that point with Deputy Secretary Lute because it is 
extremely troubling to read what GAO has written about the 
Department's annual budget justifications.
    There is no dispute between GAO and the Department that 
DNDO made the decision in December 2007 to end its acquisition 
and deployment plans for the CAARS program. Yet the 
Department's last three budget justifications to Congress have 
cited the development and deployment of the CAARS technology as 
being feasible. And, indeed, when GAO looked at the budget 
justifications for fiscal year 2010 and fiscal year 2011, the 
Department cited an ongoing testing campaign that would lead to 
a cost/benefit analysis for the CAARS program.
    It is inconceivable to me that the Department is still 
putting plans and money into its budget justifications for a 
program that it had decided to abandon in December 2007. So how 
could that happen? If DNDO ended its acquisition and deployment 
plans for the CAARS program, for the cargo screening program 
and as a result had decided not to proceed with a cost/benefit 
analysis, why were they included in the DHS budget documents 
that were submitted to Congress?
    Ms. Lute. Senator, CAARS was transitioned in 2007, it is my 
understanding, into a research and development (R&D) program. I 
only quickly glanced at the statement of GAO this morning. We 
will certainly provide a detailed response to this line of 
inquiry.
    Senator Collins. But that is not what the budget 
justification says. The budget is still citing the development 
and deployment of the CAARS technology, and this is long after 
DHS decided to cancel the acquisition plans.
    We have to be able to take at face value the information 
the Department presents to us; otherwise, how can we proceed to 
evaluate the budget justifications?
    Ms. Lute. I absolutely agree with that basic point, 
Senator. Absolutely. And, again, I will provide a detailed 
response to you in writing.
    Senator Collins. I just want to emphasize that I share the 
Chairman's view that this is extremely troubling because this 
speaks to the credibility of the budget requests. At a time 
when we are scrutinizing the budget, squeezing every dollar, if 
we cannot rely on the credibility of the information provided 
by the Department for a program that, nearly 3 years ago was 
abandoned, that is very serious. So I think we need an answer 
to this question.
    I hope, Mr. Chairman, you will put a time frame on it, that 
within the next week we get an answer to this question.
    Chairman Lieberman. Why don't we just agree that we would 
like to hear back from you by a week from today on that 
question.
    Ms. Lute. Yes, absolutely. I would just like to say, 
Senator, that there can be no question--and let me leave no 
doubt in your mind--the Department seeks and works to achieve a 
standard of highest fidelity and integrity in our interactions 
with Congress and our interactions with the American people. I 
do not accept at this point the characterization by GAO that we 
were misleading Congress, but I will provide a written answer 
in detail within the time frame we just agreed.
    Senator Collins. The second issue related to CAARS that I 
want to pursue further with you is the inexplicable lack of 
communication between DNDO and the client agency that actually 
was going to use the technology. And GAO's report says it very 
well in a headline: ``DNDO planned for the acquisition and 
deployment of CAARS without fully understanding that it could 
not feasibly operate in a U.S. port environment.'' That is just 
extraordinary. It said that when the officials from CBP and 
DNDO finally met, CBP officials said that they made clear to 
DNDO that they did not want the CAARS machines because they 
would not fit in primary inspection lanes and would slow down 
the flow of commerce through these lanes and cause significant 
delays.
    That is an extraordinary statement. That those basic 
requirements were not identified before a single dollar was 
spent is something that I just cannot understand. And it 
clearly led to the waste of millions of dollars. How is it that 
acquisition officials in DNDO could be proceeding with a 
technology that did not meet the needs of the end-user agency 
in a very fundamental way? It is not we need to tweak this a 
little bit or we will need additional training for our 
personnel. This is saying the technology will not fit in the 
primary inspection lanes and would lead to significant delays. 
How much more fundamental a specification is there than whether 
or not it would fit? How can this have happened?
    Ms. Lute. Senator, if it in fact happened, it is 
inexcusable. You are absolutely right. And even in your 
description of it, I find myself getting equally frustrated and 
annoyed. There is no excuse in an operating department for the 
acquisition of material that does not meet basic operational 
purposes like does it fit. There is no excuse.
    I would just offer, in addition to responding to the 
specific question that you have asked on the transition of 
CAARS into an R&D program, that we give you a full accounting 
of how CAARS has unfolded to address these concerns.
    What I can tell you, Senator, is that we have fixed that 
problem. We have established an acquisition system that fully 
integrates the needs of the operators with the acquisition 
system itself. We have introduced points along that system for 
active engagement and oversight. We have introduced an 
operational testing phase as well--and that is a field testing 
phase--to prevent these things from happening.
    Senator Collins. You said ``if this happened.'' Do you take 
issue with what GAO has told us in a written statement?
    Ms. Lute. Again, Senator, I just glanced at the statement 
before I walked in. I would like the opportunity to provide to 
you in writing, in detail, in a fully transparent way to the 
Committee the unfolding of this program.
    Senator Collins. Let me just ask one final question on this 
round since my time has expired.
    Chairman Lieberman. That is OK.
    Senator Collins. And that has to do with the strategic 
plan, the need for which was first identified 8 years ago, a 
source of huge frustration to the Chairman and myself, and a 
cause of significant waste of time and money.
    You have said that there is a draft plan underway. I am 
going to ask you a very basic question. When will it be done?
    Ms. Lute. Before the end of this calendar year.
    Senator Collins. More precisely--I mean, the end of this 
calendar year is a long ways away.
    Ms. Lute. Senator, I cannot give you a precise date. I can 
tell you before December 31.
    Senator Collins. Well, Mr. Chairman, I would say that 
December 31 is too long. The need for this plan has been 
evident for 8 years, and in the meantime, the Department either 
has to freeze all of its technology acquisitions, because it 
does not really know what it needs--and that puts us at risk--
or it has to proceed with acquisitions that may end up wasting 
more millions of dollars. So this has to be a priority.
    Thank you.
    Chairman Lieberman. Thanks, Senator Collins. I agree. This 
has been a long time in coming, and it is September 15 today. 
Look, we cannot compel you by a court or other action to do 
this by a given date, but the fact is it is long overdue. And 
it would impress us at least if you got it done by sometime 
significantly earlier than the end of the year.
    Is this going to be just an overall strategy? We had a 
little exchange before, but I presume this will be clear enough 
that it will guide action. I understand there may need to be 
details that follow, but I hope this will be a real working 
strategic plan that will come forward.
    Ms. Lute. Senator, it will be at a strategic level. It will 
identify the vision we are trying to pursue, and it will 
outline objectives and performance metrics.
    Chairman Lieberman. Right.
    Ms. Lute. From that, we will necessarily create an 
implementation plan which will go into greater detail about 
programs, technologies, execution, and timelines.
    I think I would just like to offer as well that we are 
following the original impulse of the Department when DNDO was 
created, which was to look at our existing operations in the 
three main areas that we work on to ensure the security of this 
homeland: Our border regions, the interior of this country, as 
well as abroad. And we have looked to reinforce existing 
processes and procedures with the kinds of technologies that 
give us a stronger hand in the ability to detect and interdict 
the movement of illicit materials.
    So we are not frozen, Senator, and I know that is a concern 
of yours. It would be a concern of mine as well. We are not 
frozen in place. We are continuing to apply those technologies 
and procedures, to train our personnel in field, to deploy more 
trained personnel, and to develop our understanding of the 
threat and vulnerabilities. But I equally share your 
frustration--and certainly understand it--that this plan has 
not yet been produced.
    Chairman Lieberman. I really urge you to get it to us 
before the end of the year if you possibly can. I think that 
would be a significant step forward.
    I have just a couple more questions. Incidentally, when you 
look at the statement that GAO filed for the record on this 
question of DNDO misleading the Congress, there is a final 
sentence in the paragraph that says--and this is GAO speaking--
``During recent discussions with DNDO officials, they agreed 
that the language in the budget justifications lacked clarity, 
and they have no plans to prepare a cost/benefit analysis.''
    So there has already been some acknowledgment. It may be a 
difference of terminology. The GAO says it was a kind of 
intentional act of misleading Congress. DNDO acknowledges that 
it lacked clarity. But I want to ask you from your position as 
administrative accountability and responsibility at the top of 
the Department to give us your view of what happened here and 
how it should affect our interactions.
    We have talked some about the unacceptable--I think that is 
the word you used--failure of some of the component agencies of 
the Department of Homeland Security to cooperate and to 
communicate in the development of some of the nuclear detection 
systems. DNDO, as you know, is also given the responsibility 
for coordinating nuclear detection activities of the Department 
of Homeland Security with other departments of our Federal 
Government--Defense, State, Justice, and Energy.
    The question I want to raise is--I do not know whether it 
is under consideration at all. In light of the fact that it is 
not clear to me that DNDO has the authority to tell those 
agencies what to do and, therefore, must rely on cooperation 
from them, each with their own jurisdictions, sovereignties, 
and perhaps stovepipes, whether we ought to be considering 
giving additional authority to DNDO to coordinate this 
responsibility for a defense against nuclear terrorism or 
whether we ought to confine DNDO's responsibility in some sense 
and have all these agencies accountable to someone higher up, 
in the White House, in the Office of Management and Budget 
(OMB), something of that kind. Is that under consideration at 
all? And if not, do you have any first responses to that?
    Ms. Lute. Senator, the situation is as you described. We do 
not have the authority such as the Office of National Drug 
Control Policy (ONDCP) has, and there have been some informal 
discussions about this. The right way forward, I think, remains 
to be decided.
    We are certainly engaged vigorously with them, for example, 
on the strategic plan for the Global Nuclear Detection 
Architecture at the Assistant Secretary level, so DNDO is 
moving out aggressively to establish the relationships and 
operating pattern to achieve the kind of cooperation that is 
expected. I think it is certainly a live consideration that 
additional authorities be considered.
    Chairman Lieberman. Well, I would welcome your thoughts on 
that.
    The final question I have is really the initial point, and 
just to draw you out on it, I take it that the Department and 
DNDO are operating on an assumption or a conclusion based on 
intelligence that the threat of nuclear terrorism is real and 
that terrorist groups continue to have an active interest in 
gaining the capability to carry out a nuclear terrorist attack, 
including within the United States.
    Ms. Lute. Yes, Senator. Beyond that, I would like to 
reserve our discussion for----
    Chairman Lieberman. Understood, but I wanted to clarify 
that.
    The second may be a little harder but--which is--I know 
there was a relatively recent IAEA report recording some cases 
of attempts to smuggle quantities of enriched uranium out of 
the former Soviet Union, particularly Russia. I guess I am 
asking whether you have a concern about whether in terms of the 
thoughts about Global Nuclear Detection Architecture, whether 
the countries of the world, including Russia, are doing enough 
to protect the nuclear material that they have.
    Ms. Lute. Again, Senator, with respect to a more detailed 
discussion on that, I would like to reserve it for the closed 
session. But I think it is fair to say that no one should be 
satisfied with the current state of efforts and that more has 
to be done.
    Chairman Lieberman. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    It is my understanding that in preparing the strategy, the 
Department is using these model guidelines. This is a document 
for nuclear detection architectures that DNDO developed in 
consultation with the international agencies as well as 
national domestic experts. These model guidelines state that 
the strategy should include a clear assignment of 
responsibility to the Federal, State, or local agency that is 
responsible for carrying out the strategies.
    We are told that the draft strategy currently being 
considered at DNDO does not include such basic elements as 
which agencies are responsible for which strategic goals, and 
that instead Congress is going to have to wait for yet another 
plan to be produced and an implementation plan for the strategy 
to be delivered at a yet unknown future date.
    If the guidelines are recommending that agency 
responsibilities be defined in the national level strategy for 
the architecture, why isn't the Department doing that, 
including that critical information and assignment of 
responsibility within the strategy? Or are you going to, let me 
ask?
    Ms. Lute. Senator, that is why it is still a draft, so we 
are using in part the model guidelines. We are mindful also of 
getting something delivered. And we are mindful of getting 
something delivered that forms a credible basis for the 
implementation plan that follows, and we will ensure that it 
has all the essential elements for that purpose.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Collins.
    Senator Akaka, good morning and welcome.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Good morning, Mr. Chairman. It is good to be 
here with you and our Ranking Member, Senator Collins. Thank 
you so much for holding this hearing, and I would like to thank 
the Deputy Secretary for being here with us today
    Ms. Lute. Thank you, Senator.
    Senator Akaka. Nuclear terrorism is among the chief threats 
facing the United States. The Department's Global Nuclear 
Detection Architecture is a crucial tool in stopping the 
illicit movement of nuclear and radiological materials. I have 
some ongoing concerns about the status of the improvements to 
our nuclear detection capabilities, our international efforts, 
and our ability to prevent the entry of nuclear materials into 
the United States. I hope to hear more about these issues 
today.
    Deputy Secretary Lute, in 2009, I introduced the 
Strengthening the Oversight of Nuclear Nonproliferation Act, 
which was included as an amendment to this Committee's WMD 
Prevention and Preparedness Act. My bill would require U.S. 
analysis of the IAEA's ability to detect a country's diversion 
of nuclear materials that could be used as a weapon and 
recommend ways for the United States to further support the 
IAEA.
    Is DHS incorporating analysis of IAEA's detection 
capabilities, and ways to further its support of the IAEA, into 
its nuclear detection efforts?
    Ms. Lute. We are, Senator, but I am not in a position to 
give you a detailed accounting of how.
    Senator Akaka. Fine. Madam Secretary, education, training, 
and exercises can better prepare personnel charged with 
stemming the illicit flow of dangerous nuclear materials. What 
steps has DHS taken to put comprehensive training efforts in 
place for these personnel throughout the United States?
    Ms. Lute. Senator, DNDO has an aggressive program with 
respect to education and training, and we can provide details 
of the numbers of programs, numbers of trained individuals as 
well, to you in writing.
    Senator Akaka. Fine. International efforts to prevent 
nuclear smuggling require information sharing between 
international partners within a broad nuclear detection 
framework. To what extent has the U.S. Government coordinated 
with international partners to improve information sharing in 
support of nuclear detection at both the strategic and 
operational levels?
    Ms. Lute. Senator, as you know, there are a number of 
international programs that the government participates in on 
this set of issues. Where the Department of Homeland Security 
fits in, this is also part of our engagement as well. We have a 
number of quite specific dialogues with international partners 
regarding port activities, the issues of cargo movements, and, 
indeed, the whole question of secure global supply chains 
incorporates a set of issues that the United States is trying 
to pursue with its international trading partners.
    So it is an imprecise answer to your question in terms of 
under which specific programs all of this is being conducted. 
There are other departments--the Department of Energy, for 
example--that have these dialogues as well, and equally there 
is dialogue with the private sector. We can provide those to 
you in writing. But as I mentioned earlier, we view homeland 
security and the efforts that we undertake to ensure the 
security of this homeland as entailing work abroad with the 
international community.
    Senator Akaka. Madam Secretary, in the DHS Bottom-Up Review 
Report, the Department stated that it will increase efforts to 
detect and counter nuclear and other dangerous materials by 
prioritizing nuclear detection research and development and by 
working with the intelligence community to develop new 
capabilities.
    How is DHS implementing these efforts? And what new 
technologies and capabilities are being considered in these 
efforts?
    Ms. Lute. Senator, I would like to reserve any discussion 
of technologies for our closed session, if you will, and I 
would characterize at this point in an open setting our efforts 
on the intelligence front. We want to understand the threat 
fully. We want to understand who those individuals might be, or 
groups, or other institutions, agencies, entities that exist 
that might be trying to acquire illicit materials. What are the 
lines of communication that they might exploit, what are the 
means they might exploit to advance their threat? What are our 
vulnerabilities? How can we best address them? Those are the 
kinds of things that we are putting into our dialogue with the 
intelligence community to more fully develop our understanding 
of the threat.
    Senator Akaka. According to the Bottom-Up Review Report, 
DHS plans to enhance its risk assessment and management across 
its mission areas. One related effort that DHS has considered 
is conducting a homeland security national risk assessment. If 
conducted, how do you foresee this assessment better informing 
strategies, investments, and operations related to countering 
the threat of nuclear terrorism?
    Ms. Lute. As I mentioned in my opening statement, Senator, 
we believe that eventually we would like to make it near to 
impossible for anyone to acquire or attempt to use illicitly 
nuclear materials and weapons. In the meantime, we want to make 
it prohibitively difficult. That depends on creating 
significant uncertainty in the minds of potential adversaries 
through layered defenses that reduce risk and shore up our 
ability to defend ourselves.
    We believe this country can defend itself in this area as 
well as others, and so we will use all the tools at our 
disposal, including analyses and understandings of risks, 
vulnerabilities, and capabilities of technologies, processes, 
and our operating components to ensure that we keep this 
country safe.
    Senator Akaka. Well, thank you very much, Mr. Chairman. My 
time has expired. Thank you.
    Chairman Lieberman. Thanks very much, Senator Akaka, for 
being here and for asking those thoughtful questions. I think 
probably it is best now to adjourn to closed session. Look, 
bottom line, I think you hear us. We are not happy or satisfied 
with progress on the whole nuclear detection architecture and 
the way that a considerable amount of taxpayer money has been 
spent up until now without any substantial result. So we are 
counting on you, Deputy Secretary Lute, and, of course, 
Secretary Janet Napolitano, to really step in and take charge 
of this.
    Short term, we look forward to the response within a week 
to this question of DNDO misleading the Congress on the budget 
question. And then you set the goal, but it is September 15. If 
you can get that strategic plan out sometime in November, that 
would be a great step forward and a sign of encouragement to us 
that things were changing.
    I am tempted to ask Mr. Stern whether after this hearing he 
wants to go forward and take over DNDO.
    Ms. Lute. Of course he does
    Chairman Lieberman. He does, I know. So I appreciate that 
you do. It needs fresh new leadership, and we look forward to 
working with you on the progress that we all want.
    With that, we will reconvene for the closed portion of the 
hearing as soon as our legs can take us to Room 217 in the 
Senate Security Offices over in the Capitol Visitor Center.
    The hearing is adjourned.
    [Whereupon, at 11:13 a.m., the Committee proceeded to other 
business.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T8397.001

[GRAPHIC] [TIFF OMITTED] T8397.002

[GRAPHIC] [TIFF OMITTED] T8397.003

[GRAPHIC] [TIFF OMITTED] T8397.004

[GRAPHIC] [TIFF OMITTED] T8397.010

[GRAPHIC] [TIFF OMITTED] T8397.011

[GRAPHIC] [TIFF OMITTED] T8397.012

[GRAPHIC] [TIFF OMITTED] T8397.013

[GRAPHIC] [TIFF OMITTED] T8397.014

[GRAPHIC] [TIFF OMITTED] T8397.015

[GRAPHIC] [TIFF OMITTED] T8397.016

[GRAPHIC] [TIFF OMITTED] T8397.017

[GRAPHIC] [TIFF OMITTED] T8397.018

[GRAPHIC] [TIFF OMITTED] T8397.019

[GRAPHIC] [TIFF OMITTED] T8397.020

[GRAPHIC] [TIFF OMITTED] T8397.021

[GRAPHIC] [TIFF OMITTED] T8397.022

[GRAPHIC] [TIFF OMITTED] T8397.023

[GRAPHIC] [TIFF OMITTED] T8397.024

[GRAPHIC] [TIFF OMITTED] T8397.025

[GRAPHIC] [TIFF OMITTED] T8397.026

[GRAPHIC] [TIFF OMITTED] T8397.027

[GRAPHIC] [TIFF OMITTED] T8397.028

[GRAPHIC] [TIFF OMITTED] T8397.029

[GRAPHIC] [TIFF OMITTED] T8397.030

[GRAPHIC] [TIFF OMITTED] T8397.031

[GRAPHIC] [TIFF OMITTED] T8397.032

[GRAPHIC] [TIFF OMITTED] T8397.033

[GRAPHIC] [TIFF OMITTED] T8397.034

[GRAPHIC] [TIFF OMITTED] T8397.035

[GRAPHIC] [TIFF OMITTED] T8397.036

[GRAPHIC] [TIFF OMITTED] T8397.037

[GRAPHIC] [TIFF OMITTED] T8397.038

[GRAPHIC] [TIFF OMITTED] T8397.039

[GRAPHIC] [TIFF OMITTED] T8397.040

[GRAPHIC] [TIFF OMITTED] T8397.041

[GRAPHIC] [TIFF OMITTED] T8397.042

[GRAPHIC] [TIFF OMITTED] T8397.043

[GRAPHIC] [TIFF OMITTED] T8397.005

[GRAPHIC] [TIFF OMITTED] T8397.006

[GRAPHIC] [TIFF OMITTED] T8397.007

[GRAPHIC] [TIFF OMITTED] T8397.008

[GRAPHIC] [TIFF OMITTED] T8397.009

[GRAPHIC] [TIFF OMITTED] T8397.044

[GRAPHIC] [TIFF OMITTED] T8397.045

[GRAPHIC] [TIFF OMITTED] T8397.046

[GRAPHIC] [TIFF OMITTED] T8397.047

[GRAPHIC] [TIFF OMITTED] T8397.048

[GRAPHIC] [TIFF OMITTED] T8397.049

[GRAPHIC] [TIFF OMITTED] T8397.050

[GRAPHIC] [TIFF OMITTED] T8397.051

[GRAPHIC] [TIFF OMITTED] T8397.052

[GRAPHIC] [TIFF OMITTED] T8397.053

[GRAPHIC] [TIFF OMITTED] T8397.054

[GRAPHIC] [TIFF OMITTED] T8397.055

[GRAPHIC] [TIFF OMITTED] T8397.056

[GRAPHIC] [TIFF OMITTED] T8397.057

[GRAPHIC] [TIFF OMITTED] T8397.058

[GRAPHIC] [TIFF OMITTED] T8397.059

[GRAPHIC] [TIFF OMITTED] T8397.060

[GRAPHIC] [TIFF OMITTED] T8397.061

[GRAPHIC] [TIFF OMITTED] T8397.062

[GRAPHIC] [TIFF OMITTED] T8397.063

[GRAPHIC] [TIFF OMITTED] T8397.064

[GRAPHIC] [TIFF OMITTED] T8397.065

[GRAPHIC] [TIFF OMITTED] T8397.066

[GRAPHIC] [TIFF OMITTED] T8397.067

[GRAPHIC] [TIFF OMITTED] T8397.068

[GRAPHIC] [TIFF OMITTED] T8397.069

[GRAPHIC] [TIFF OMITTED] T8397.070

[GRAPHIC] [TIFF OMITTED] T8397.071

[GRAPHIC] [TIFF OMITTED] T8397.072

[GRAPHIC] [TIFF OMITTED] T8397.073

[GRAPHIC] [TIFF OMITTED] T8397.074

[GRAPHIC] [TIFF OMITTED] T8397.075

[GRAPHIC] [TIFF OMITTED] T8397.076

[GRAPHIC] [TIFF OMITTED] T8397.077

[GRAPHIC] [TIFF OMITTED] T8397.078

[GRAPHIC] [TIFF OMITTED] T8397.079

[GRAPHIC] [TIFF OMITTED] T8397.080

[GRAPHIC] [TIFF OMITTED] T8397.081

[GRAPHIC] [TIFF OMITTED] T8397.082

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
